SCotUS CASE #

August 2nd, 2021

IN THE SUPREME COURT

i,

i

OF THE
UNITED STATES

\

JUSTIN MICHAEL ROSSI
PROSE PETIT
V.

t

THE UNITED STATES OF AMERICA"
RESPONDENT
FILED
PETITION FOR WRIT OF CERTIORARI

AUG 0 2 2021
OFFICE OF THE CLERK
IPREME COURT. U-S

Prior Case #‘s V. The Crown and the United States of America.
Rossi v. The Crown
1:18-cv-007 12-UNA

DoCDC

USCoA 18-7076

SCotUS 18:7539

Rossi v. The USA
DoCDC 1:20-cv-03843-UNA

Justin Michael Rossi
1245 Mosswood Chase
Tallahassee, FL 32312
Phone: 808-989-0984
E-mail: JREDDNZ@gmail.com

USCoA 21 -5047

Solicitor General U.S
Room 5614, Department of
Justice
950 Pennsylvania Avenue., N.W.
Washington, D.C. 20530-0001

\

i

i

»>

QUESTIONS:
1. The declaration of Independence says that United States Citizens have the
right, the duty, and the privilidge to alter, and abolish laws 'and to form a new government. I want to alter,
and abolish laws and form a new government immedietly, when can I do that?
2. The USA has failed to grant me jurisdiction over the crown while granting
others juridisction over foreign governments like North Korea, HBO has a documentary of the Queen
called the Queen of the World, and the current Politicians like to talk about the USA's special relationship
with the Crown, I'd like to seize and freeze all assets of the Crown including all land and corporations as
well as any property like clothing, jewelry, houses, crypto currency, gold, flags, spaceships, military
vessels, sattelites, just literally everything the Crown has, even the Queen's underwear, and diapers
using executive order 13818 by Donald J. Trump, I filed civil actions when he was in office but the United
States Court of international trade clerks just started to stutter on the phone so I want to know when I can
expect the Queen's stuff, so when can I do that, and can I be called King of the World as I give back all
the land the crown stole during the years they spent terrorizing other cultures during colonization?
3. In all the other court cases there is a lot of evidence regarding egregious
human rights abuses and corruption I supplied a lot of it an explained it could you please go back and
look at all the cases before you vote on whether or not to hear my case, and remember that we have the
declaration of independence so that we don't have to fight any wars for independence and justice v. the
crown?
4. Honestly it has been eight years what does a US Citizen have to do to get
justice?
5. Do you like your jobs, did you read your Bible's?
Check Revelation 18:7 before you decide, which side you are on.
"How much she hath glorified herself, and lived deliciously, so much torment and
sorrow give her: for she saith in her heart, I sit a queen, and am no widow, and shall see no sorrow."
Fair warning, for a Nation that claims to trust in God you should prlly read the rest of the
passages in the book that was used to steal people's land with cannon's and muskets before deciding
whether or not to acknowledge the paragragh placed in the declaration of independence by the people
who founded this country in a war against the crown that allows citizens to form new government's when
the crown confound's its politics.
6. Do you think God will destroy the world by fire, do you think God will use
yellowstone, or will the Crown rule forever?

TABLE OF CONTENTS
Tableof Contents

1

Questions.

2

Brief.
JURISDICTION

3
.4
5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.6-7

STATEMENT OF THE CASE

.8

REASONS FOR GRANTING THE WRIT
CONCLUSION......................................................................................

.9

APPENDICES
Appendix 1 Payslip from Fishing six days (note observer) one page.
Appendix 2 Statements from witness stamped by justice of the peace, four pages.
Appendix 3 "victim" impact statments, two pages.
Appendix 4 Court transcript (jury) showing testimony of plaintiff being assaulted resulting in self
defense restraint, one page.
Appendix 5 Indictments showing the Queen v the plaintiff, original 2 charges before charges were
offered to be dropped a year later, showing original trial date of November 18th, 2013 before trial
was delayed prior to all charges being offered to be dropped, evidence showing the crown has a
dvd they edited for the trial and refused to give the plaintiff as well as names of all the
"witnesses" who assaulted the plaintiff including the two constables which led to a year of
dozens of egregious human rights violations of both international and domestic laws showing
the law violating the law, five pages.
Appendix 6 Letter 17th of June 2014 3:52am from Rob Ord to the Crown prosecutor, stating that
the trial was the plaintiffs Alama saying "small things that wake one up”, trying to get the Crown
to pull all charges etc. one page.
Appendix 7 Arraignment 17th of June 2014 showing charges that were added a year later after all
charges were refused to be let dropped as then there would be no tesitmonies, and the Crown
had made the plaintiff suffer egregious human rights violations for a year when they obviously
had no case and their citizens, and constables assaulted the plaintiff with the injuries from the
constables resulting in permanent physical injury, preventing the plaintiff from returning to his
normal work as a commercial fishing deckhand in Alaska. Also shows jury verdicts for added
charges, and wrongful jury verdict which should have been overturned by Judge barry due to
witness testimony. The video taken by Joshua when he wrongflly broke into the dwelling of the
plaintiff was after the plaintiff had been assaulted by his ex fiance whom witnessed the
constables and other citizens assaulting the plaintiff yet the Crown and the police never charged
anyone except the plaintiff which is also a violation of the law. The video was never mention
although I'm sure the Crown showed it to the jury, it shows the aggressor being the ex fiance
being restrained and is inadmissible as Joshua broke Into the dwelling and entered without
permission because he heard "the victim” punching the plaintiff in the face dozens of times, and
instead of assisting her he recorded it with his phone, as he didn't witness the plaintiff being
assaulted while he was laying in bed trying to change his flight to Australia, how special, Not
guilty on all by jury verdict save the first charge which should have been overturned from
testimony, one page.

l:

BRIEF
The Plaintiff has attempted to seek redress for egregious violations of the Plaintiffs human
rights for over five years. The Paintiff experienced a series of events occuring over a period
spanning more than one year. The plaintiff was assaulted by civilians, and police whilst being
compliant and complacent, the Plaintiff was then charged after being wronlully arbitrarily
arrested and significantly disabled by the excessive unnecessary force used by the New Zealand
Constables.
After being wrongfully charged the Plaintiffs passport was siezed by the Nelson District Court of
New Zealand during the valid period of the Plaintiffs work permit for over one year during
which the Plaintiffs work permit expired whilst the Plaintiffs passport was siezed by the foreign
allied governments court at the request of The Crown, forcing the Plaintiff to live within New
Zealand in servitude to the courts due process.
The Plaintiffs work permit expired on August 10th 2013, the Plaintiff was rendered significantly
disabled by New Zealand Police Cosntables on June 2nd 2013, the Plaintiffs trial was in June
2014 being as the first trial scheduled for November 18th 2013 was cancelled by Nelson District
Judge Zohrab on the day of the trial in an empty court room with Michael Vesty as Public
Defender Zohrab Stated that the Plaintiffs trial needed to be postponed to "make room for a
more important trial".
The Plaintiff was held in servitude confined to the borders of New Zealand With no access to
medical care or treatment, nor assistance through any type of social welfare or victims
compensation assistance with no right to provide his own means of subsistence; while also
being denied any access to justice due to what is described in the newly discovered evidence
shown in appendix 1 as the covering up of police actions in assaulting the Plaintiff.
Prior to the trial in June 2014 all charges were offered to be dropped see appendix 3 exhbit 6.
The Plaintiff exhausted remedies in New Zealand by seeking assistance from the Independent
Police Conduct Authority, the Ombudsman, the Human Rights Commission, the Human Rights
Tribunal, the Immigration Protection Tribunal, Parliament, the Royal Prerogative of Mercy
Through mail and dozens of phone calls before and after the egregious violations of human
rights experience by the Plaintiff, including applying for social welfare through WINZ (Work and
Income New Zealand).
Despite the irrefutable evidence New Zealand has offered no redress.

i

I:

JURISDICTION
Isabel Morel De Letelier, et al. v. The Republic of Chile, et ail.
District Court for the District of ColumbCivi! Action No.78-1477
In this ruling an Honorable Judge stated:
a foreign government "has no discretion to perpetrate... action that is clearly contrary to the
precepts of humanity as recognized in both national and international law."
The evidence provided by the Plaintiff to the District Court for the District of Columbia, and the
United States Court of Appeals is sufficient irrefutable evidence to waive the immunity of the
foreign State of New Zealand and The Crown its subdivision.
UNDER
42 U.S. Code § 1985 - Conspiracy to interfere with civil rights
AND
28 U.S. Code § 1605 (a)(5)(A)(B) General exceptions to the jurisdictional immunity of a foreign
state
(a) A foreign state shall not be immune from the jurisdiction of courts of the United States or of
the States in any case—
(5) not otherwise encompassed in paragraph (2) above, in which money damages are sought
against a foreign state for personal injury or death, or damage to or loss of property, occurring
in the United States and caused by the tortious act or omission of that foreign state or of any
official or employee of that foreign state while acting within the scope of his office or
employment; except this paragraph shall not apply to
(a) any claim based upon the exercise or performance or the failure to exercise or perform a
discretionary function regardless of whether the discretion be abused, or
(B)any claim arising out of malicious prosecution, abuse of process, libel, slander,
misrepresentation, deceit, or interference with contract right

j

*

«

»

;

t

?

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
US Constitution Amendment 8
28 U.S. Code § 1605 (a)(5)(A)(B)
General exceptions to the jurisdictional immunity of a foreign state
42 U.S. Code §1985
Conspiracy to interfere with civil rights
42 U.S. Code § 2000dd
Prohibition on cruel, inhuman, or degrading treatment or punishment of persons under custody
or control of the United States Government
NZBORA New Zealand Bill of Rights Act
ICCPR International Covenant on Civil and Political Rights
UDHR Universal Declaration of Human Rights
ICESCR International Covenant on Economical Social and Cultural Rights
CAT Convention Against Torture
US Constitution Article III Section 2.

i

STATEMENT OF THE CASE
I want to form a new government and alter and abolish laws while freezing and seizing all assets
of the crown.
After exhausting remedies in New Zealand the Plaintiff attempted to seek redress in the United
States of America in the following courts:
In case l:18-cv-00712-UNA the Plaintiff was told that the case had been dismissed with
prejudice and was un appealable and that the District Court for the District of Columbia had
nojuridisction.ln any event the plaintiff appealed and was ordered to establish a cause of action
in easel 8:7076 in the USCA in D.C. The Plaintiff did so by providing irrefutable evidence to the
court inwhich the USCA dismissed and disregarded said evidence stating the Plaintiffs appeal
had beenmade out of time, although the Plaintiff filed in time by First class mail with USPS on
May 11th2018, responding to judment entered on April 16th 2018.
The Plaintiff petitioned for rehearing with new evidence suggesting the US was a party to the
egregious ciminal actions of The Crown in New Zealand.The USCA dismissed the Plaintiffs
petition for rehearing on October 26th, 2018.The Plaintiff suffered damages not only physical, but
psychological, and emotional as heexperienced what is known by medical experts as the trauma
of victimization, for over one yearwhile being destitute, held in servitude, prevented from
providing his own means ofsubsistence, subjected to a malicious prosecution, not being granted
equal rights to justice, notbeing granted medical treatment for his injuries etc., all in an effort to
"cover up police actions in assaulting him" i.e. The Plaintiff.The Plaintiff continues to suffer
physical injuries which leave him categorized under category two of the Unites States Federal
Policy of Categorizing persons with disabiiites. The Plaintiff is
categorized as category two significantly disabled, due to having his arm wrenched
backwardswhile hand cuffed and compliant. The Plaintiff has a witness statement by one Nicole
Meiring stamped by a Justice of the Peace in New Zealand which in their country is equilent to
testimony given on stand at trial.The significant damage to the Plaintiffs shoulder and back
prevent the Plaintiff from retumingto his career as a Commercial Fishing Deckhand in Alaska
where the Plaintiff made Five-Hundred dollars an hour as a green hom his first season in Alaska.
The Plaintiff now gets Social Security Income which was not backpaid properly, and should
havebeen granted whilst being stranded over seas, instead it was not granted for more than a
year after returning to the United States of America.
The Plaintiffs MRI showing the damge to his back was taken two and a half years after the
injury occurred and significant damage can still be seen, the bilateral scapula scan has not even
been officially documents due to the fact that a doctor wouldn't order it
As such it would appear the extent of the cover up continued in America through the
subversion of American Medical Practitioners.

I

REASONS FOR GRANTING WRIT OF CERTIORARI
A.Redress has yet to be found in this matter as those who assaulted the Plaintiff have never
been brought to justice.
B. The damages suffered by the Plaintiff have yet to be acknowledged.
C.Those responsible for the egregious human rights violations suffered by the Plaintiff have not
been held accountable for their actions.
D. The injuries sustained by the Plaintiff continue to persist to this present day.
E.This is the last court for the Plaintiff to seek redress in before requesting the United
Nationslook into the case due to all domestic rememdies being exhausted not only in the United
Statesbut also in New Zealand.
F.The evidence provided by the Plaintiff is irrefutable and proves that The Crown should not
begranted immunity under the FSIA Foreign Sovereign Immunities Act.
G.The Plaintiff's Notice of Appeal to the USCA in D.C. was in time.
H. The Declaration of Independence.
I. The Bible.
J.For Great Justice.

>

Conclusion.
The Plaintiff continues to seek redress against The Crown for egregious human rights violations.
The Plaintiffs cases are reported on www.pacer.gov and www.NZIii.org.
The Declaration of Independence, I seek to form a new government and to alter and abolish laws, and
to seize and freeze all assets of the crown, and the USA.

'3

!

